INSPECfOR GENERAL

                                                               IG-V-105




UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436

  December 24, 1998

  MEMORANDUM

  TO:            Director, Office of Operations

  FROM:          Inspector   Gener~c~~;tf"¥1
  SUBJECT:       Inspection Report No. 02-99, Followup Review of the
                 Commission's Ability to Report on Performance Measurement
                 Goals

  We initiated this inspection in October 1998to verify and validate selected data
  sources and informationcollectionsystems that supportthe Commission's fiscal
  year (FY) 1999annual performance plan. We found considerable improvement
  over the form and content of the performance measurement goals contained in
  the 1997 Strategic Plan. The various office directors assigned responsibility for
  performance goals are collecting data or making plans tor virtually all
  performance indicators. In a few instances, we found the data sources and
  informationcollectionsystemsdid not identifyuse by customers or critical dates
  needed to evaluate measurement of the performance goal. We also found a few
  instances where the performance goals and indicators could be clarified.

  A draft inspection report was distributed to the Directors of the Offices of
  Operations (OP), Industries(IND), Investigations (INV), Information Systems
  (OIS), Unfair ImportInvestigations(OUII), Tariff Affairs and Trade Agreements
  (TATA), External Relations (ER), Secretary (SE), and General Counsel (OGC)
  on December 15, 1998, for review and comment. They made technical
  corrections and other comments which have been incorporated.

  Scope

  We interviewed allmembersof the Strategic PlanningCommittee concerningthe
  revisions made to the 1997Strategic Plan. Wealso interviewed the directors and
  stan in all offices with responsibility tor the FY 1999 performance indicators
  and examinedrelevantdocuments maintained by these offices. We reviewedthe
  Government Performance and Results Act of 1993 (the Results Act) and
  guidance from the Office of Management and Budget (OM B).
We also reviewed H.R. 2883, Government Performance and Results Act
Technical Amendments of 1998, which was passed by the House on March 12,
1998. The Bill requires that inspector generals develop and implement a plan to
review agency implementation of performance plans and results. The plan must
include two elements. (I) Agency efforts to develop and use performance
measures determining progress toward achieving performance goals and program
outcomes. (2) Verification and validation of selected data sources and
information collection and accounting systems. This review addressed these
elements. Future reviews will include selecting specific performance indicators
and confirming that supporting data exists for the information collection and
accounting systems.

Background

The Results Act provided for government agencies to develop and submit a
strategic plan to Congress by September 30, 1997, for the five-year period
ending September 30, 2002. The strategic plans were to include objective,
quantifiable performance measurement goals. No later that March 31,2000, and
annually thereafter, agencies are to prepare and submit a report on program
performance for the previous FY. Accordingly, reporting on goals covers each
year beginning October I, 1998 (FY 1999).

Administrative Order 98-05, issued on March 5, 1998, officially designated the
members of the Strategic Planning Committee. The members are the Directors
ofOP (Chairman), ER, IND, INV, and Administration, and the Secretary, the
General Counsel, an Assistant General Counsel in OGC, and the Chief of Staff
in the Office of the Chairman.

In FY 1998, OIG conducted an inspection ofthe performance measurement goals
in the 1997 Strategic Plan (Inspection Report No. 01-98, Review of the
Commission's Performance Measurement Goals, dated March 6, 1998). We
found that some goals were not defined or expressed as tangible, measurable
objectives. Responsibility for measuring the goals had not been clearly
designated and, even when responsibility was accepted, office directors usually
had not developed plans for collecting data. As a result ofthat inspection, the
Commission revised the Strategic Plan. The number ofcritical success indicators
was reduced from 16 to 15, and the number of strategic goals was reduced from
36 to 20. FY 1999 performance goals and indicators were developed for each
strategic goal. The revised Plan for the five-year period ending September 30,
2003, was submitted to OMB on October 15, 1998.

Performance Measures

The Results Act provides that each plan establish performance goals and express
such goals in an objective, quantifiable, and measurable form unless authorized
to be in an alternative form. A performance goal is a tangible, measurable

                                      2
objective against which actual achievement can be compared, including a goal
expressed as a quantitative standard, value, or rate.

Our review of the revised performance measures found that most goals were
translated into distinct, measurable indicators that could reasonably be
accomplished in FY 1999. The office directors designated for performance
indicators were aware of their responsibilities and either gathering data or
planning on how to do so. In a few instances, we found data sources and
information collection systems that either did not identify use of Commission
resources by non-ITC customers, or did not identify critical dates needed to
evaluate measurement of the performance goal. We also found some
performance goals and indicators that could be clarified. Our findings are
summarized in the attached schedule of FY 1999 performance data.

lise by customers. Multiple strategic goals refer to use by customers, usually
Congress, USTR, peers, and public. However, the data sources and information
systems do not always differentiate between use by customers and use by
Commission employees, which significantly impairs the viability ofthe numbers
to measure increased use by customers. Further, some dataon customers was not
by type of customer, which limits the ability to determine which customers are
.      .
mcreasmg use.

       Operation No.3 strategic goal 1(a) (l). IND is to track the level of
       visitors using reports on the ITC Internet site to measure use of ITC
       research capabilities/productsby Congress and USTR, peers, and public.
       The numbers being tracked do not separate use by customer, and include
       use by ITC employees.

       The IND Director said the statistics can be separated for ITC users, and
       some other types of users may be separated, although it may not be
       possible to identify USTR or Congress. IND will explore this issue
       further with OIS.

       Operation No.3 strategic goal 1(a) (ii). IND is to track the requests for
       copies ofreports to measure use oflTC research capabilities/products by
       Congress and USTR, peers, and public. The numbers being tracked do
       not separate use by type of customer.

       The IND Director said ITC requesters can be separated and a good
       approximation of various types of users, including Congress and USTR,
       Government agencies, and the public can be obtained by reviewing the
       actual requests.IND will explore this issue further with the Secretary and
       OIS.

       Operation No.4 strategic goal Ita). OIS is to track use of trade data
       and nomenclature expertise by Congress and USTR, peers, andpublic.

                                       3
       The numbers tracked include the logins on the Data Web, logins and
       reports generated on the Trade Data Web, and logins on the Tariff
       Database. The number of logins on the Data Web is separated by user,
       including logins by on-site employees; logins by off-site employees (i.e.
       those working at home or on travel) are included in the "other" users
       group. The reports generated on the Trade Data Web and the Tariff
       Database do not differentiate between ITC employees and customers.
       Statistics collected since December 1997 ind icate that approximately 45
       percent of the logins to the Data Web site are by ITC users.

Timeliness. Multiple strategic goals refer to timeliness and compliance with
administrative and statutory deadlines. Critical dates needed to evaluate
measurement of the performance goal were not always provided in the
information collection systems.

       Operation No.1 strategic goal 2(b). INV is to maintain a log of APO
       material and public versions of reports made available in accordance
       with established guidel ines. The log includes the scheduled release dates
       for unspecified APO material and checkmarks to indicate that the
       material was sent to SE for release. SE notifies INY of the actual release
       date, but this date is not recorded or compared to the scheduled release
       date.

       Operation No.4 strategic goal 3(a). TATA is to track timeliness of
       completing work. The Bill Reports log does not include the date ITC
       received the request.

Clarification. Various elements of the plan need some sort of clarification for
intent, actual practice, organization, and/or to eliminate duplication.

       Operation No.1 strategic goal l(a). INV, GC and SE are to prepare
       update or status and evaluation reports on existing and new handbooks
       and other materials. The offices updated the Blue Book in accordance
       with the FY 1999 performance goal. They are evaluating the status of
       other materials but do not have plans for submitting reports on the
       periodic update of import injury trade materials.

       Operation No.1 strategic goal 2(b). INV is to maintain a log of APO
       material and public versions of reports made available in accordance
       with established guidelines. The "public versions of reports" was
       intended to be the release of public information to parties to an
       investigation, not the final report.

       Operation No.2 strategic goal 3(a)(ii). SE and OIS are to track time
       between filing and scanning ofsubmissions which are made accessible
       to the public via electronic and other means. The data collected does not

                                       4
distinguish 337 documents, the focus of Operation No.2, from other
documents. The Secretary and OUII Director agreed this indicator was
supposed to include all documents.

According to the OUII Director, when tracking the time between the
filing and scanningofdocuments, the data is not broken down separately
for section 337 tIlings as opposed to other filings, Given that section 337
filings comprise about one-half of all Commission filings (and are not
treated differently from other filings for scanning purposes), it was felt
that if the stated time frames were being met for all types of filings with
the Commission, that would establish that section 337 filings were being
scanned in a timely fashion.

Operation No.2 strategic goal 3(a)(iii). The Document Imaging
Oversight Committee (DIOC) is to track time between submission and
scanning of section 337 evidentiary records which are made accessible
to the public via electronic and other means. The Secretary, the DIOC
Chair, is working with OIS to develop a data collection mechanism to
track the time between the submission ofsection 337 evidentiary records
to SE and scanning for all documents. Rather then the date the records
were submitted to the Administrative LawJudge (AU), the final date of
the hearing is going to be recorded.

Operation No.3 strategic goall(a). Strategic Goal l(a) is to obtain
increased use of research capabilities/products by customers. Strategic
Goal 2 (a) is to institute study initiatives in emerging areas/issues. The
numberofsection 332 investigations initiated is a performance indicator
for both goals, although 332 investigations are rarely self-initiated.

Also, the total workdays on quick responses to USTR and Congress is a
performance indicator for both goals in Operation No. 3 on research
programs and for a goal in Operation No.5 on trade policy support. The
quarterly report includes technical advice provided on an agency-wide
basis. The specific information on use of research capabilities/products
and participation in organizations could be extracted from the quarterly
reports, but there are currently no plans to do so.

IND will pursue potentially eliminating indicator 2(a)(ii) in the next
version of the performance plan. The IN0 Director discussed the "q uick
response" indicator with the ER Director, and they will attempt to split
the workdays between Operations # 3 and # 5.

Operation No.4 strategicgoall(a). This goal requires OIS to track use
of expertise by customers. The Director of OIS stated that this indicator
is duplicative of next two indicators to track use of data by customers


                                 5
       and use of main library by customers. The statistics for the main library
       include substantial ITC use.

       Operation No.4 strategic goal 3(a). TATA is to track timeliness of
       completing work on or before deadlines. The TAT A Director said there
       are no administrative, regulatory, or statutory deadlines for bill reports
       or 484 Committee actions.

       Surveys. Four operations (Nos. 1,2,4, and 5) have goals that are going
       to use surveys to obtain customer feedback. ER and TAT A are
       coordinating efforts in developing one surveyfor Operations NO.4 and
       5 because of a shared customer base. There may be additional
       overlapping customer bases between ER, TATA, OUII, and INV. Full
       coordination between these offices at the survey design stage will ensure
       that customers are not asked to respond to multiple Commission surveys.

We suggest that the Director of Operations:

       - Determine whether strategic goals for use by customer apply to the
       individual types of customers identified, or non-ITC use in general.
       Ensure data collection systems provide statistics excluding ITC use, and
       by type of user if appropriate;

       - Ensure data collection systems include all necessary dates to measure
       timeliness; and

       - In the next revision of the Strategic Plan, clarify wording that is
       misleading and placement of strategic goals that apply to all operations,
       and eliminate duplicate reporting of data.

Attachment

cc: Commission
    Strategic Planning Committee
    Office Directors




                                       6
                                                                                                  Attachment
                               USITC FY 1999 Performance Data
Guide to abbreviations used:



               ALJ               Administrative Law Judge

               APO               Administrative protective order

               Blue Book         Antidumping and Countervailing Duty Handbook

               DIOC              Document Imaging Oversight Committee

               EDIS              Electronic Docket Information System

               ER                Office of External Relations

               GC                Office of the General Counsel

               10                Initial determination by an ALJ

               IND               Office of Industries

               INV               Office of Investigations

               OIS               Office of Information Services

               OUII              Office of Unfair Import Investigations

               Red Book          An Introduction to Administrative Protective Order Practice in
                                 Antidumping and Countervailing Duty Investigations

               SE                Office of the Secretary

               TATA              Office of Tariff Affairs and Trade Agreements

               TEO               Temporary exclusion order

               URAA              Uruguay Round Agreements Act

               USTR              United States Trade Representative


                                                           1
OPE~TIONNO.l:ImportIW.u~ry~In.v.e.s.ti~g~a.ti.o.n.s~~~~~~~~~~~~~~~~~~.



1(a)   Periodically update         Blue Book              (NV prepares update or        (NV updated the BlueBook in October 1988. The generic
       existing handbooks and      updated; INV/GC        status report, and            questionnaire is being revised with a scheduled completion date
       other materials, and        complete initial       evaluation report.            of December 1998. Other materials will then be evaluated. (NV
       evaluate need for and as    evaluation.                                          intends to evaluate and update materials on an ongoing basis, but
       necessary develop new                                                            has no plans to prepare update, status, or evaluation reports
       materials.
                                                          GC prepares update or         GC and SE participated in update of BlueBook and revision of
                                                          status report, and            questionnaire. The offices deferred to INV on submission of
                                                          evaluation report.            reports.

                                                          SE prepares update or
                                                          status report, and
                                                          evaluation report.

2(a)   Obtain feedback from        INV/GC conduct         INV compiles survey           A joint effort by (NV and GC to conduct survey is in initial planning
       users of the process on     first user survey by   results.                      stage, i.e. identifying users, methodology, and content. Survey will
       investigative procedures.   9/30/99.                                             be completed and results compiled by September 30, 1999.
                                                          GC compiles survey results.

2(b)   Make available APO          Same as strategic      INV maintains log of          INV maintains an "APO Tracking Log" of statutory date for release
       material and public         goal.                  releases.                     of APO material and a check mark to indicate materials were sent
       versions of reports in                                                           to SE. SE notifies INV of when APO materials are distributed and
       accordance with                                                                  provides lists of parties receiving documents. The actual date is
       established guidelines,                                                          not recorded or compared to the guidelines of 7 to 30 days.
       modified as appropriate
       based on user feedback.                                                          Public versions of reports are not addressed because reference
                                                                                        was intended to be the release of public information to parties in
                                                                                        the investigation.




                                                                               2
3(a)   Obtain feedback from         INV and GC poll     INV compiles poll results.     INV has drafted a formal survey tool that may be used in addition
       Commissioners on the         Commissioners                                      to or in place of GC memoranda and would quantify responses.
       availability of data.        after each
                                    determination.      GC compiles poll results.       GC sends monthly memoranda to Commissioners soliciting
                                                                                       feedback on the opinion writing process and, since October 1998,
                                                                                       the adequacy of data collection. The memoranda identify all
                                                                                       preliminary and final determinations made during the preceding
                                                                                       month.

3(b)   Circulate draft staff        Same as strategic   INV tracks issuance of draft   INV maintains a "Report and Determination Tracking Log" which
       reports to the               goal.               reports.                       includes columns to be checked when pre-hearing and staff
       investigative team for                                                          reports are distributed to team members. Data is supported by
       review; draft legal issues                                                      documents in investigative files.
       memoranda and draft
       opinions to the team for                         GC tracks draft memoranda      GC has a "Legal Issues Memorandum and Opinion Tracking Log"
       comment on factual                               and draft opinions.            which includes columns to be checked when draft memoranda and
       accuracy and                                                                    opinions are distributed to team members. Data is supported by
       confidentiality.                                                                documents in case files.

                                                                                       The universe was defined by both offices as actions taken during
                                                                                       the FY.

4(a)   Meet administrative          Same as strategic   INV tracks deadlines and       INV maintains a "Report and Determination Tracking Log" with
       deadlines for staff          goal.               issuance dates for reports     columns to record administrative and statutory deadlines and
       reports, legal issues                            and determinations.            actual dates for pre-hearing and staff reports and determinations.
       memoranda, and draft                                                            Data backed up by administrative dates in action jackets, and
       opinions; meet statutory                                                        actual dates in investigative files.
       deadlines for
       determinations.                                  GC tracks deadlines and        GC has a "Legal Issues Memorandum and Opinion Tracking Log"
                                                        issuance dates for             which includes columns to record administrative deadlines and
                                                        memoranda and draft            actual dates for legal issues memoranda and draft opinions. Data
                                                        opinions.                      backed up by administrative deadlines in action jackets and actual
                                                                                       dates in case files

                                                                                       The universe was defined by both offices as actions taken during
                                                                                       the FY.




                                                                          3
OPERATION NO.2: Intellectual Property-Based                                Imp.;.o;.;rt;.;I;;,n;..;,v..;,e,;.;st;,;,jig.a;.;t~io;.;n_s                           _



1 (a)   Meet statutory and key   Same as strategic   OUII tracks:
        administrative           goal.               (i) Time between                         OUII has a "Key Statutory and Administrative Deadlines in Section
        deadlines.                                   institution of investigation             337 Investigations" form to record date complaint filed with SE and
                                                     and filing of complaint.                 date of Commission vote (for institution). The actual time from filing
                                                                                              to institution, which cannot exceed 30 or 35 days by rule, is shown.


                                                     (ii) Time between                        The form also is used to record the date of the public notice (for
                                                     institution and setting of               institution) and when target dates are established. The actual time
                                                     target dates.                            from institution to setting target dates, which is done in an action
                                                                                              jacket and cannot exceed 45 days by statute, is shown. Data is
                                                                                              supported by documents in OUII files.

                                                     GC tracks:                               GC has a "Key Statutory and Administrative Deadlines in Section
                                                     (iii) Time between                       337 Investigations" form to record target date for issuance of final
                                                     ALJ's issuance of final 10               10 and date the ALJ issues the final 10. The log is also used to
                                                     and target date for issuance             record the target completion date (Commission decision) and date
                                                     of final 10, and time between            issued (notice and/or order of final determination). Data is
                                                     Commission's issuance of                 supported by documents in EDIS and GC files.
                                                     final determination and target
                                                     date for completion of
                                                     investigation.
                                                                                              The universe was defined by both offices as actions taken during
                                                                                              the FY.

                                                     (iv) In TEO proceedings, time            GC has a "Key Statutory and Administrative Deadlines in Section
                                                     between notice of institution,           337 Investigations" form to record dates the notice of institution is
                                                     10, and determination.                   published in the Federal Register, the ALJ issues the temporary
                                                                                              relief 10, and the notice and/or order of the Commission decision on
                                                                                              temporary relief. The regulatory deadlines (70 or 120 days) and
                                                                                              statutory deadlines (90 or 150 days) are footnoted, and
                                                                                              complicated cases will be noted as such. Data is supported by
                                                                                              documents in EDIS and GC.




                                                                          4
1(b)   Conclude section 337     OUII/GC compile       For investigations in which    OUII is researching information on investigations commenced (not
       investigations in time   data on length of:    Commission made final          concluded) from January 1, 1992 - December 31, 1994, the three
       frames that are          (a) investigations    determinations on violation:   years before URAA.
       consistent with the      concluded during
       URAA.                    the 3 years before    OUII compiles data on length   OGC is researching information on investigations commenced in
                                the URAA, and (b)     of investigations.             FY 1998, and is maintaining data for FY 1999.
                                investigations that
                                were commenced        GC compiles data on length     The publication in the Federal Register of the notice of institution
                                during FY 1998        of investigations.             will be used for beginning dates and the date of the notce and/or
                                and 1999; decide                                     order of the Commission final determination will be used for the
                                whether to                                           ending dates. The offices intend to compare actual times with
                                categorize                                           URAA suggested time frames of 12 or 18 months. Information will
                                investigations by                                    be compiled by September 30, 1999.
                                type and compare
                                on that basis.                                       OUII is researching information on subject matter (e.g. patent
                                                                                     claims or registered trade marks) to be used when deciding
                                                                                     whether to categorize investigations by type

1(c)   Reduce average time to   OUII compiles data    OUII reports on comparison     OUII has a "Section 337 Ancillary Proceedings" form to record data
       conclude ancillary       on length of past     of lengths of proceedings.     being collected on type of proceeding, date filed, and concluded
       proceedings.             ancillary                                            (date of Commission vote) for FYs 1994 to 1998.
                                proceedings
                                (advisory opinion,    OGC reports on comparison      OGC has a "Section 337 Ancillary Proceedings" form to record
                                modification and      of lengths of proceedings      similar data on FY1999 ancillary proceedings.
                                enforcement); GC
                                on new                                               The universe was defined by OUII and GC as proceedings
                                proceedings.                                         instituted by notice. Reports will be submitted at year-end.




                                                                          5
2(a)   Address reports of       Same as strategic   OUII tracks:
       violations of remedial   goal.               (i) calls and letters re        OUII has a "Reports of Possible Violations of Section 337 Remedial
       orders in a timely                           purported violations and        Orders and Responses Thereto" form to record date and nature of
       manner.                                      responses thereto.              reports received in FY 1999, and ITC response. The responses
                                                                                    include a wide variety of actions, such as ancillary proceedings
                                                                                    Data is supported by documents in OUII files.

                                                    (ii) letters from Customs and   OUII has never had any involvement with the issuance of seizure
                                                    resulting seizure and           and forfeiture notices
                                                    forfeiture notices.

                                                    GC tracks:
                                                    (i) calls and letters re        GC has a "Reports of Possible Violations of Section 337 Remedial
                                                    purported violations and        Orders and Responses Thereto" form to record date and nature of
                                                    responses thereto.              reports received in FY 1999, and ITC response. The responses
                                                                                    include a wide variety of actions, such as ancillary proceedings
                                                                                    Data is supported by documents in GC files. The GC and OUII
                                                                                    forms will be compared at year-end

                                                    (ii) letters from Customs and   GC has a "Seizure and Forfeiture Orders Issued by the
                                                    resulting seizure and           Commission" form to record date letters are received from Customs
                                                    forfeiture notices.             in FY 1999, and when the seizure and forfeiture order is signed by
                                                                                    the Secretary Data is supported by documents in GC files.




                                                                        6
2(b)   Establish mechanisms      (i) OUIIIGC          (i) QUII reports on             QUII and GC established a working group which is in the planning
       to insure the             develop and pre-     development and results of      phase of the pre-test survey. The offices intend to complete the
       Commission has            test survey of       survey and on responses.        pre-test survey by September 3D, 1999, and report on results.
       information regarding     complainants who
       effectiveness of orders   obtained exclusion   GC reports on development
       and uses that             orders regarding     and results of survey and on
       information to further    whether subject      responses.
       enforcement objectives.   imports have
                                 stopped.

                                 (ii) OUII/OGC form   (ii) OUII reports on working   I Working group will address proposals   after survey
                                 working group to     group proceedings.
                                 develop and
                                 implement propo-     GC reports on working group
                                 sals to bolster      proceed ings.
                                 enforcement.




                                                                          7
3(a)   Increase information       (i) OUII compiles      (i) OUII reports on inventory.   OUII compiled an inventory of information on OUII section of Web
       accessible to the public   inventory of                                            site (2 documents) and is maintaining a list of items added in FY
       via electronic and other   information now on                                      1999. OUII is working with OIS to put the list of outstanding
       means.                     agency Web site,                                        exclusion orders (47 as of December 1, 1998) with a link to each
                                  and adds list of                                        order on the Web site by March 1999.
                                  exclusion orders.

                                  (ii) SE scans % of     (ii) SE tracks time between      SE and OIS developed an automated program to count workdays
                                  new filings into       filing and scanning of           for 2!l documents scanned, not just section 337 documents. SE and
                                  EDIS within 2          submissions accepted for         OUII said the goal was intended to apply to all documents.
                                  business days          filing.
                                  after filing, and %
                                  within 4;              OIS tracks time between          SE has not established a schedule for periodic assessments.
                                  periodically           filing and scanning of
                                  assesses update        submissions accepted for
                                  rate and impact of     filing
                                  transition five-year
                                  ("sunset") review
                                  cases on rate.

                                  (iii) DIOe develops    (iii) DIOe tracks time           SE and OIS were developing a mechanism to track dates from
                                  audit of process for   between submission and           conclusion of the AU hearing through entry into ED IS. The DIOe is
                                  updating               scanning of section 337          developing a timeline in order to audit the process and set
                                  evidentiary records    evidentiary records.             timeliness goals.
                                  and sets timeliness
                                  goals for FY 2000.




                                                                              8
OPERATION NO.3: Research Program



 1 (a)   Obtain increased use of ITC         INO determines     INO tracks:
         research capabilities/products by   baseline           (i) Level of visitors using     INO obtains figures from OIS on the number of logins
         customers:                          measurements for   reports on ITC Internet site.   on the Commission Web site and the number of visits
                                             performance                                        to 332 reports and the number of 332 reports down
          Congress and USTR                  indicators.                                        loaded. The report is not by type of customer and
          Peers                                                                                 includes ITC use.
          Public.
                                                                (ii) Requests for copies of     INO obtains a copy of requests by type of report (332,
                                                                reports.                        Summaries, IER, ITIR, and Research Studies) from
                                                                                                SE. The report is not by type of customer and
                                                                                                includes requests from ITC employees.

                                                                (iii) Written comments from     INO is revising the survey form distributed with some
                                                                users.                          332 reports to be used selectively on future reports

                                                                (iv) Mentions in                INO is coordinating with ER to procure an automated
                                                                Congressional debates.          system review of Congressional Record to identify
                                                                                                references to the Commission. ER expects to have
                                                                                                the system by March 1999, and the review will be
                                                                                                retroactive to October 1998.

                                                                (v) Numbers of witnesses        INO obtains witness lists from SE and is maintaining
                                                                and Members of Congress         schedules on the numbers of total witnesses and
                                                                testifying at section 332       members of Congress testifying at 332 hearings.
                                                                hearings.

                                                                (vi) Quick responses to         INO obtains number of workdays (not responses) from
                                                                USTR and Congress listed in     the ER quarterly report. The report includes all
                                                                Chairman's quarterly report.    assistance provided to USTR and Congress agency-
                                                                                                wide.

                                                                (vii) Number of requests for    INO is maintaining a schedule of the number of 332
                                                                section 332 investigations.     investigations instituted by the Commission (by vote
                                                                                                date).



                                                                      9
2(a) Institute study initiatives in emerging   INO establishes,        INO tracks numbers of :          INO is scheduling number of individual articles
     areas/issues.                             based on historical     (i) Self-initiated research      published in IERs, IDRs, Summaries, and Staff
                                               data, baseline          articles.                        Research papers.
                                               number of initiatives
                                               instituted.             (ii) Requests for section 332    Same as response to Operation No.3, Goal 1 (a )(vii).
                                                                       investigations.

                                                                       (iii) Quick responses to        I Same as response to Operation No.3,   Goal 1 (a )(vi).
                                                                       USTR and Congress listed in
                                                                       Chairman's quarterly report.

3(a) Complete work on or before                Same as strategic       INO will track percent of        INO developed statistics for FYs 1996, 1997 and
     deadlines.                                goal.                   section 332 reports to           1998, and is maintaining a schedule for FY 1999. The
                                                                       requesters on time.              actual due dates and delivery dates will be added.
                                                                                                        The universe includes all 332 reports with specific
                                                                                                        deadlines.




                                                                                       10
OPERATION NO.4: Trade Information Services



1(a) Obtain increased use of ITC trade data       TATA/OIS               TATA tracks use of expertise   TATA has a file of 'Visitor Research Log' sheets that
     and nomenclature expertise by                establishes baseline   by customers.                  are completed by people using World Customs
     customers:                                   measurements.                                         Organization (WCO) materials kept in TATA. TATA
     ·  Congress and USTR                                                                               has not decided on how to tabulate data, i.e. per
     ·  Peers                                                                                           visitor or document.
     ·  Public
                                                                         OIS tracks use of expertise    The OIS Director said the following two indicators
                                                                         by customers.                  track use of expertise.

                                                                         OIS tracks use of data by      OIS developed a system for OP to track the logins on
                                                                         customers.                     Data Web, logins and reports generated on the Trade
                                                                                                        Data Web, and logins on the Tariff Database. Initial
                                                                                                        logins to the Data Web are divided by type of users
                                                                                                        (Congress, USTR, Commerce, government, ITC and
                                                                                                        other). The numbers include ITC use, internal and
                                                                                                        external access, which is approximately 45% of total
                                                                                                        use.

                                                                         OIS tracks use of Main         OIS prepares weekly reports on user statistics such
                                                                         Library by customers.          as non-ITC visitors, book circulation, reference
                                                                                                        questions answered, and Interlibrary loans. Book
                                                                                                        circulation is all ITC use and reference questions are
                                                                                                        mostly from ITC staff.

2(a) Obtain feedback through:                 I
                                              TATA conducts first        TATA tabulates results of      TATA and ER plan to conduct joint survey for
     · External Relations                     customer survey;           survey.                        Operations 4 and 5. The offices are in the initial
     · Customer contacts/surveys.             ER establishes
                                              contact                    ER tabulates results of
                                                                                                        planning stage, i.e. determining customers, survey
                                                                                                        tool, and content. Survey will be completed and
                                              mechanisms.                contacts.                      results tabulated by September 30, 1999.




                                                                               11
3(a) Complete work on or before deadlines.   I Same as strategic   TATA tracks timeliness.   TATA maintains a Bill Reports log, with various dates.
                                              goaL                                           The log does not include date ITC received letter.

                                                                                             TATA also has a data file on 484 Committee actions
                                                                                             which lists dates for receipt of the petition and
                                                                                             effective date of change. The data file is currently not
                                                                                             printable in a usable form.

                                                                                             TATA said neither the Bill Reports nor the 484
                                                                                             Actions have any deadlines.




                                                                        12
OPE~TIONNO.5:TradePolicySu~.o.rt~~~~~~~~~~~~~~~~~~~~



1(a) Regularly contribute technical advice in   ER develops list of   ER collects and reports         ER collects data on work days spent providing advice
     organizations where Commission             appropriate           information on participation.   and assistance to USTR and Congress which is
     participation is appropriate.              organizations and                                     provided to the Chairman in a quarterly report. ER
                                                log to track                                          has a list of organizations in which the Commission
                                                participation.                                        participates; and is working with OP to identify
                                                                                                      organizations where a presence is needed.

2(a) Obtain feedback from                       ER conducts first     ER compiles survey results.     See response to Operation No.4, Goal 2(a).
     USTRlCongress/other agencies and           user survey.
     organizations and customer surveys.




                                                                            13
